                                   SOCIAL SECURITY

MEMORANDUM


Date:   April 12, 2005                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Controls over the Suspension of Title XVI
        Overpayment Collection Efforts (A-04-04-24029)


        The attached final report presents the results of our audit. Our objective was to
        determine whether the Social Security Administration’s decisions to suspend collection
        efforts on Title XVI overpayments were made in accordance with its policies and
        procedures. Specifically, we reviewed overpayment suspension decisions for recipients
        the Social Security Administration classified as (1) unable or unwilling to pay or
        (2) could not be located or were out of the country.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                       S
                                                           Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        THE SOCIAL SECURITY
   ADMINISTRATION’S CONTROLS OVER
     THE SUSPENSION OF TITLE XVI
  OVERPAYMENT COLLECTION EFFORTS


     April 2005   A-04-04-24029




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                      Executive Summary
OBJECTIVE
Our objective was to determine whether the Social Security Administration’s (SSA)
decisions to suspend collection efforts on Title XVI overpayments were made in
accordance with its policies and procedures. Specifically, we reviewed overpayment
suspension decisions for recipients that SSA classified as (1) unable or unwilling to pay
or (2) could not be located or were out of the country.

BACKGROUND
Title XVI of the Social Security Act established the Supplemental Security Income (SSI)
program in 1972, effective January 1, 1974, to provide income to financially needy
individuals who are aged, blind or disabled.1 To determine an individual’s initial
eligibility for the program, payment amounts and periodic payment redeterminations,
SSA relies heavily on the individual’s self-disclosure of all his or her income sources.
Because an SSI recipient’s determination factors, such as financial status, marital status
and living arrangements, frequently vary over time, SSI payments may be error-prone
and result in overpayments.

When a Title XVI overpayment occurs, SSA can suspend collection of the debt in
certain situations. Specifically, collection efforts can be suspended when a recipient is
not in current payment status and previous collection efforts have determined the
individual is unable or unwilling to pay, cannot be located, or is out of the country.
Suspension decisions allow SSA to stop unproductive collection efforts. Because a
suspended overpayment is not waived or written off as uncollectible, SSA has the
option to initiate collection efforts at a later date if a change in the debtor’s2 status may
lead to some collection of the overpayment.

RESULTS OF REVIEW
SSA staff did not always comply with Agency policies and procedures to ensure
decisions to suspend collection efforts on Title XVI overpayments were appropriate.
Specifically, our review of 2503 Fiscal Year (FY) 2002 overpayment suspensions–which

1
    Social Security Amendments of 1972 (Public Law 92-603).
2
 For reporting purposes, the term debtor is used to define a recipient of Title XVI payments to which s/he
was not entitled and therefore is indebted to SSA.
3
  We randomly selected overpayment suspensions greater than $3,000 that occurred in FY 2002 and
remained in suspended status as of October 2, 2003. We selected two samples from one segment of the
Supplemental Security Record (SSR). The SSR is divided into 20 segments based on the last 2 digits of
the beneficiary Social Security number.



Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)                     i
included a sample of 175 randomly selected unable or unwilling to pay decisions and a
separate sample of 75 randomly selected unable to locate or out of the country
decisions4–determined that SSA did not always document the (1) justification for the
suspension decision or (2) required management approval before suspending an
overpayment. Additionally, SSA employees suspended overpayments when debtors or
debtors’ representative payees had reported earnings that may have enabled some
repayment of the debt. Finally, SSA personnel suspended debts and classified the
debtor as unable to locate or out of the country, even though we found no evidence
SSA attempted to contact the debtor or representative payee through their employer. In
total, 164 (65.6 percent) of the 250 suspension decisions reviewed had 1 or more
noncompliance errors. As such, for FY 2002 overpayment decisions greater than
$3,000, we estimate SSA personnel did not fully comply with SSA policies and
procedures in 12,060 cases totaling about $87.5 million.

CONCLUSION AND RECOMMENDATIONS
SSA did not always follow established policies and procedures to ensure Title XVI
overpayment suspension decisions were appropriate. To ensure Agency employees
make sound overpayment suspension decisions and comply with Agency policies, we
believe SSA should more closely monitor this process. Additionally, we believe further
opportunities exist for SSA to collect these debts.

Accordingly, we recommend that SSA:

•   Issue a reminder and, if necessary, further guidance to SSA debt collection staff
    requiring that they fully develop and document overpayment suspension decisions,
    as required by SSA policy.

•   Instruct Debt Management and field office supervisors to periodically review
    overpayment suspension decisions to ensure staff complies with SSA requirements.

•   Ensure all overpayment suspension decisions exceeding established thresholds are
    reviewed and approved by appropriate SSA management officials, as required by
    SSA policy.

•   Periodically match debtors’ and representative payees’ earnings to suspended
    overpayments to identify instances in which some repayment of the debt is possible.

•   Consider clarifying existing guidance and/or issuing further guidance allowing the
    collection of overpayments from a representative payee who is a parent of a minor
    child/beneficiary.


4
 The sample of 175 unable or unwilling to pay and the sample of 75 unable to locate or out of the country
suspension decisions were randomly selected from segment seven of the SSR. The universe of the
unable or unwilling to pay and the unable to locate or out of the country suspension decisions was
795 and 143, respectively.


Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)                ii
•   Take action to collect a $12,108 overpayment from a current SSA employee.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with all of our recommendations. In its response to our report, SSA stated
actions to strengthen the controls over suspending collection efforts on Title XVI
overpayments have been taken or are planned. Additionally, the Agency responded
that several initiatives to improve the collection of existing overpayments, including
suspended overpayments, were in progress. We believe SSA’s response adequately
addressed our recommendations. SSA also provided technical comments that we
incorporated into the final report, as appropriate. The full text of SSA’s comments is
included in Appendix D.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)   iii
                                                                      Table of Contents
                                                                                                                Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

SSA Personnel Did Not Always Document Their Development of and
Justification for Suspending Collection Efforts ........................................................3

SSA Management Did Not Always Document Their Review of Suspension
Decisions as Required ............................................................................................4

SSA Personnel Suspended Overpayments When Debtors Had Earnings ..............6

    •    Debtors Individually Responsible for Overpayments ....................................6

    •    Representative Payees Who May Have Been Responsible for
         Overpayments ..............................................................................................8

More Thorough Collection Efforts May Have Located Debtors .............................10

    •    SSA Employee Could Not be Located........................................................11

CONCLUSIONS AND RECOMMENDATIONS.....................................................13

OTHER MATTER..................................................................................................15

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)
                                                                    Introduction
OBJECTIVE
Our objective was to determine whether the Social Security Administration’s (SSA)
decisions to suspend collection efforts on Title XVI overpayments were made in
accordance with its policies and procedures. Specifically, we reviewed overpayment
suspension decisions for recipients that SSA classified as (1) unable or unwilling to pay
or (2) could not be located or were out of the country.

BACKGROUND
Title XVI of the Social Security Act established the Supplemental Security Income (SSI)
program in 1972, effective January 1, 1974, to provide income to financially needy
individuals who are aged, blind or disabled. To determine an individual’s initial eligibility
for the program, payment amounts and periodic payment redeterminations, SSA relies
on the individual’s self-disclosure of all his or her income sources. Because an SSI
recipient’s determination factors, such as financial status, marital status and living
arrangements, frequently vary over time, SSI payments may be error-prone and result
in overpayments.

When a Title XVI overpayment occurs, SSA can suspend collection of the debt in
certain situations. Specifically, collection efforts can be suspended when a recipient is
not in current payment status and previous collection efforts have determined the
individual is unable or unwilling to pay, cannot be located or is out of the country.
Suspension decisions allow SSA to stop unproductive collection efforts. Once
suspended, the overpayments remain in this status indefinitely. SSA reports suspended
overpayments to the Department of the Treasury (Treasury) for offset against a debtor’s
future tax refunds and, where applicable, reports the debt to credit bureaus. Also, SSA
may use collection tools such as administrative offset against Federal salary or other
payments, and private collection agencies.

When SSA suspends Title XVI debts, SSA personnel assign one accounting code for
decisions in which the debtor is either unwilling or unable to pay and another code for
decisions where the debtor is unable to be located or out of the country. The SSA
accounting codes do not provide for any further classification. For example, without
written documentation, we were unable to determine whether a suspension decision
was made because the debtor was unwilling or unable to pay. SSA policies and
procedures require that all suspension decisions be justified, documented, and
approved when certain dollar thresholds are met. SSA policies also provide specific
instructions for decisions involving a debtor who is unable or unwilling to pay and
separate instructions for debtors who cannot be located or are out of the country.

Generally, Debt Collection Representatives and Debt Specialists in the Debt
Management Section of SSA’s program service centers (PSC) are responsible for


Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)    1
collection efforts on Title XVI overpayments. This staff has the authority to suspend
collection efforts on Title XVI overpayments under $20,000 when it is determined that
further efforts would not be effective. In certain situations, SSA field office (FO)
personnel are responsible for collecting Title XVI overpayments and may suspend
collection efforts on overpayments under $2,000 without supervisory approval. FO
suspension decisions for overpayments between $2,000.01 and $19,999.99 must have
FO management approval. All suspension decisions over $20,000 require Assistant
Regional Commissioner approval.

During our review, three other audits were being conducted on SSI overpayments, and
our work was coordinated to ensure there was no overlap. These audits are discussed
below.

•   Supplemental Security Income Overpayments (A-01-04-24022), issued April 2004,
    assessed SSA’s efforts to identify, prevent, and resolve SSI overpayments.

•   Social Security Administration’s Controls over the Title XVI Waiver Process
    (A-06-03-13077), issued October 2004, assessed whether Title XVI waiver decisions
    were in accordance with SSA’s policies and procedures.

•   Social Security Administration’s Rules of Administrative Finality (A-01-04-24024) will
    assess the Agency’s application of administrative finality rules to SSI and Old-Age,
    Survivors, and Disability Insurance cases.

To determine whether SSA employees complied with Agency policies and procedures
when suspending Title XVI overpayments, we reviewed 250 randomly selected
overpayment suspension decisions from FY 2002 that remained in suspended status as
of October 2, 2003. From this universe, we randomly selected two samples—one
including 175 suspension decisions greater than $3,000 in which SSA concluded the
debtor was unable or unwilling to pay and another including 75 overpayment
suspensions over $3,000 in which the debtor was unable to be located or out of the
country.

We reviewed each of the selected overpayment suspension decisions for
appropriateness as defined in SSA’s Program Operations Manual System (POMS). Our
audit tested more than one control attribute for each suspension decision. For example,
we determined whether each decision was adequately documented to evidence the
(1) reasoning/justification for the suspension and (2) approval by the appropriate level of
management. As a result, some suspensions have more than one reportable issue and
are included as audit findings in one or more sections of the report. However, when
estimating the overall number of suspension decisions with errors, we counted only one
error for each case. Further information regarding our audit scope and methodology
and sampling methodology and results is in Appendices B and C, respectively.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)   2
                                                     Results of Review
SSA personnel did not always comply with Agency policies and procedures to ensure
decisions to suspend collection efforts on Title XVI overpayments were appropriate.
Our review of 250 FY 2002 overpayment suspensions–175 unable or unwilling to pay
decisions and 75 unable to locate or out of the country decisions–determined that SSA
did not always document the (1) justification for the suspension decision or (2) required
management approval before suspending an overpayment. Additionally, SSA
personnel suspended some overpayments when debtors or the debtors’ representative
payees had reported earnings that may have enabled some repayment. Finally, SSA
personnel suspended some debts and classified the debtors as unable to locate or out
of the country, even though we did not find evidence SSA attempted to contact the
debtor or the debtor’s representative payee through their current employer. In total,
164 (65.6 percent) of the 250 suspension decisions reviewed had 1 or more
noncompliance errors. As such, for FY 2002 overpayment decisions greater than
$3,000, we estimate SSA personnel did not fully comply with SSA policies and
procedures for 12,060 cases totaling about $87.5 million.

SSA PERSONNEL DID NOT ALWAYS DOCUMENT THEIR
DEVELOPMENT OF AND JUSTIFICATION FOR SUSPENDING
COLLECTION EFFORTS

SSA personnel did not always document efforts to collect overpayments it subsequently
suspended. SSA’s policies and procedures require that the development of and
justification for the suspension decision be documented in the remarks section of the
Debt Management System1 (DMS) or on a record of contact screen in the Modernized
Supplemental Security Income Claims System (MSSICS).2 However, of the
250 FY 2002 overpayment suspensions we reviewed, SSA personnel had not
maintained relevant and sufficient documentation for 129 (51.6 percent) of the cases.
Based on our results, we estimate that 10,460 FY 2002 overpayment suspension
decisions totaling about $75.8 million were not adequately documented. See
Appendix C for our estimation methodology.

SSA policies require that personnel take certain actions before suspending collection
efforts on Title XVI overpayments. As explained below, documentation should have
been available indicating that the required steps were performed.

•     If a debtor states he or she is unable to pay, SSA requires that the debtor submit
      personal financial information for review. Information that should be obtained and


1
    SSA POMS, GN 02210.217.
2
    SSA POMS, SI 02220.005 C.3.



Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)    3
      analyzed includes the debtor’s income, expenses and other resources.3 If SSA
      determines sufficient funds are not available, the debt may be suspended for inability
      to pay.4 However, during our review of the 175 unable or unwilling to pay
      suspensions, we did not always find documentation showing analysis of the debtor’s
      financial position in the required system screens or in the debtor’s case folder.

•     When a debt exceeds $3,000 and the debtor refuses to provide financial information
      or offer repayment–that is, they are unwilling to pay–SSA is required to check the
      debtor’s master earnings record to determine whether the debtor may have earnings
      that allows for some repayment. However, during our review of the 175 unable or
      unwilling to pay suspension decisions, we did not always find evidence that SSA
      personnel reviewed the debtors’ earnings records.

•     To locate a debtor, SSA should rely on information from internal sources and other
      available outside sources, such as credit bureaus, the U.S. Postal Service, and
      State Departments of Motor Vehicles.5 SSA personnel are required to pursue all
      reasonable leads in locating a debtor.6 An example of an internal SSA record that
      can be used to locate a debtor is the Supplemental Security Income Record Display
      (SSIRD). When the SSIRD reports earned income for a debtor, SSA personnel
      should research SSA’s Master Earnings File7 (MEF) to identify the debtor’s employer
      and address. If previous collection efforts to locate the debtor are unsuccessful,
      SSA personnel are required to contact the debtor through the employer.8 However,
      we did not always find evidence of such contacts or attempts to locate the debtors in
      the 75 unable to locate or out of the country suspension cases we reviewed.

SSA MANAGEMENT DID NOT ALWAYS DOCUMENT THEIR REVIEW
OF SUSPENSION DECISIONS AS REQUIRED
Of the 250 unable or unwilling to pay and unable to locate or out of the country
suspension decisions reviewed, 148 required supervisory review because they were
above the established threshold. However, for 129 (87.2 percent) of the
148 suspension decisions, we found no evidence of the required supervisory review.
SSA policies in effect during FY 2002 required that management review of suspension
decisions exceeding established thresholds be documented by the respective manager
on a (1) Report of Contact screen in MSSICS; (2) paper SSA-5002 Report of Contact,


3
    SSA POMS, GN 02210.217.
4
    SSA POMS, GN 02210.217 B.
5
    SSA POMS, GN 02210.213.B.3.
6
    SSA POMS, SI 02220.051.A.1.
7
    The MEF is an SSA database that contains Social Security number (SSN) holders’ recorded earnings.
8
    SSA POMS, SI 02220.051.e.


Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)                4
which should have been included in the case file;9 or (3) SSA-553, Special
Determination form, which was sent to an Assistant Regional Commissioner for
approval and, if approved, documented in MSSICS. However, we found no such
documentation for 129 of the 148 suspension decisions requiring approval. Based on
our results, we estimate that 9,200 FY 2002 overpayment decisions, totaling about
$67.7 million, did not have documented supervisory approvals. See Appendix C for our
estimation methodology. Table 1 details the level of management approval required for
overpayment suspension decisions developed at SSA FOs and PSCs.

          Table 1: Management Approval Required for Suspension Decisions10

       Debt
    Processing                        Level of Management Approval Required
     Location
                    Debt       Debt between      Debt between $20,000
                   Under       $2,000.01 and        and $99,999.99            Debt over $100,00011
                   $2,000       $19,999.99
                                Operations        Assistant Regional       ARC MOS must refer to the
        FO          None       Supervisor or      Commissioner for         U.S Department of Justice
                               Management       Management Operations
                                  Support            and Support
                                 Specialist          (ARC-MOS)
                                                  Assistant Regional       ARC PCO must refer to the
       PSC          None           None           Commissioner for         U.S Department of Justice
                                                  Processing Center
                                                      Operations
                                                     (ARC-PCO)

During the course of our audit, SSA implemented revised procedures12 for documenting
supervisory approvals for overpayment suspension decisions made at the FOs. The
revised procedures would allow FO managers to document their supervisory review in
the MSSICS by keying in a personal identification number (PIN).13 Under this new
procedure, suspension decisions developed by FO staff cannot be posted to MSSICS
until the supervisor enters a PIN, indicating the decision was reviewed and approved.
The suspension decisions included in our review were not subject to the revised policy
and were evaluated based on the policy that was in place at the time of our audit. We
did not evaluate the revised procedures. Accordingly we cannot opine as to whether
the new procedures effectively address our concern that suspension decisions lacked
evidence of a supervisory review.

9
    SSA POMS, SI 02220.005.B.3., in effect September 18, 2001 to November 26, 2002.
10
     SSA POMS, SI 02220.005 B.4., in effect September 18, 2001 to November 26, 2002.
11
     None of the suspended overpayments in our sample exceeded $100,000.
12
     SSA POMS, SI 02220.005 A.
13
  SSA refers to this procedure as a 2-PIN process. Non-supervisory staff must enter a PIN to access
and develop the decision in the MSSICS (PIN 1), and then a supervisor must enter a PIN to authorize the
posting of the decision (PIN 2).


Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)               5
SSA PERSONNEL SUSPENDED OVERPAYMENTS WHEN DEBTORS
HAD EARNINGS

Of the 175 cases in which SSA suspended collection efforts because the debtor was
unable or unwilling to pay, we determined 32 (18.3 percent) debtors or their
representative payees had earnings that may have been sufficient to enable some
repayment of the debt. We are aware that earnings are only part of the debtor’s overall
financial position, as expenses and other assets are also factors and affect SSA’s
decision to suspend an overpayment based on inability to repay. However, based on
our findings, we estimate that, for 2,900 FY 2002 suspension decisions totaling about
$20.7 million, SSA did not identify debtors’ or their representative payees’ earnings,
which may have been sufficient to make some repayment of the debt possible. See
Appendix C for our estimation methodology.

Debtors Individually Responsible for Overpayments

For 10 (31 percent) of the 32 suspension decisions, the beneficiary was responsible for
the overpayment and had reported earnings when the overpayments were suspended.
The annual earnings information available to SSA staff at the time of the suspension
decision for these 10 beneficiaries ranged from $12,171 to $36,313. In all 10 cases, we
found no evidence that SSA considered the debtor’s earnings, expenses and other
assets before suspending the overpayment. In two cases, both of which were for the
same beneficiary, SSA’s documentation indicated the debtor’s FY 2001 earnings were
under $10,000. As such, SSA personnel suspended collection of the overpayment for
inability to pay. However, SSA’s earnings records for Tax Year (TY) 2001 indicated the
debtor actually earned $26,452. Finally, in 6 of the 10 cases, SSA records reported that
the overpayments occurred because the beneficiaries had earnings that exceeded
allowable earnings under the Title XVI program, which is an indicator the debtor may
have earnings to enable some repayment.

We believe that, at a minimum, SSA personnel should have (1) recognized that some of
the debtors’ overpayments resulted from excess earnings and (2) correctly identified the
TY 2001 earnings. Both situations should have made SSA personnel further develop
the debtor’s financial position.

We acknowledge that, because of annual wage reporting time frames, current year
earnings are frequently not available to SSA until the third quarter of the following year.
As a result, SSA staff may have had only TY 2000 earnings available when some of the
FY 2002 suspension decisions were made. However, we determined that SSA debt
collection staff had both TY 2000 and 2001 earnings available in 4 of the 10 cases. We
believe 2 consecutive years of earnings is an indication of continuing employment that
should have been considered in determining whether the debtors were capable of some
repayment.

Our review of SSA’s MEF for TYs 2000 through 2003 determined that all 10 debtors had
earnings in each of the 4 years, and the earnings were generally consistent. Although


Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)   6
the 2002 and 2003 earnings were not available in SSA earnings records at the time of
the suspension decision, we believe the earnings demonstrated a trend of continuing
employment that may enable the debtor to repay some of the debt. However, according
to SSA’s policy, further collection efforts are terminated once an overpayment is
suspended, unless the individual begins receiving SSA benefits again at some time in
the future. As a result, SSA is not aware when debtors begin to earn wages that may
enable them to repay some of the debt.

We believe SSA’s debt collection efforts could be improved by periodically matching
debtor earnings with suspended overpayments. This match would enable SSA to
identify those debtors who may be able to repay the debt. Upon identifying these
debtors, SSA could temporarily remove the debt’s suspension status and attempt to
further develop the debtors’ overall financial position to determine whether repayment is
possible.

Table 2 details the debtors’ earnings that were available to SSA staff when the
overpayment was suspended and demonstrates that the debtors’ earnings continued
over the 4-year period 2000 through 2003.

        Table 2: Earnings Data Available when Overpayments Were Suspended

                                  Overpayment      Reported     Reported      Reported       Reported
          Over-                      Due to        Earnings     Earnings      Earnings       Earnings
         payment       Date         Excess            TY           TY            TY             TY
         Amount     Suspended       Income           2000         2001          2002           2003
    1      $5,869     7/22/02         No            $26,300      $28,559       $24,844        $32,374
    2      11,982     3/5/02          Yes             25,945       24,365        26,574         23,407
    3       3,326     1/11/02         No              24,955       22,251        38,657         30,555
    4       4,730     4/02/02         Yes             21,607       26,452        32,398         33,797
    5       5,747     4/02/02         Yes             21,607       26,452        32,398         33,797
    6      10,500     5/24/02         Yes             18,289       36,313        31,686         35,908
    7       8,298    1/29/02           Yes             15,113       25,940       21,527        18,715
    8       5,518    9/05/02           Yes             13,989       15,467       15,792          4,029
    9      13,582    8/06/02            No             13,349       13,085       12,768        14,242
   10       4,617    2/04/02            No             12,171       25,633       33,812        23,507
  Legend: Earnings shaded in purple indicate the debtor earnings available at the time the
  overpayment was suspended

Although SSA suspended collection efforts on these overpayments, we found that 2 of
the 10 overpayments had subsequent collections totaling $3,534 through a Treasury
recovery action. We acknowledge that SSA’s policy to automatically report suspended
overpayments to the Treasury for subsequent offset against Federal tax refunds




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)                 7
resulted in some repayment. However, we believe the Treasury offset also indicated
that debtors had earnings after the suspension decision that may have enabled some
additional repayment of the debt.

Representative Payees Who May Have Been Responsible for Overpayments

In the remaining 22 of the 32 suspension decisions, the debtors had a representative
payee. For 21 of the 22 suspensions, the representative payee was the parent of a
minor child/beneficiary or a mentally disabled adult. According to SSA policy, personnel
may attempt to recover an overpayment from the beneficiary’s representative payee
and should attempt to determine whether the representative payee is solely or jointly
liable for the overpayment.14

For the 21 cases where the representative payee was the parent of a minor child or a
mentally disabled adult, we believe it is reasonable to expect the parent acted in a
fiduciary capacity. Therefore, assuming the parents managed the benefits, we believe it
is reasonable that SSA more aggressively collect overpayments from the representative
payee/parent when they have earnings. However, SSA’s debt collection policy and
procedures do not provide distinct instructions for collecting overpayments from a
representative payee that is a parent of a minor child.

Our review of SSA’s earnings records found the representative payees’ most recent
annual earnings available to SSA staff at the time of the suspension decisions ranged
from $12,305 to $62,159. Although the earnings indicate the representative payees
may have been able to repay some of the debt, we found no evidence that SSA
evaluated the representative payees’ overall financial conditions to determine whether
an ability to pay existed. We reviewed SSA’s earnings file for TYs 2000 through 2003
and found that 20 of the 22 representative payees had earnings in each of the TYs. As
previously discussed, we understand the 2002 and 2003 earnings data were not
available when SSA employees made the suspension decisions. However, the
continued pattern of earnings could indicate the representative payees had some ability
to repay the debts.

Table 3 provides details of the representative payee earnings that were available to
SSA staff when the overpayment was suspended and demonstrates that the
representative payees’ earnings generally continued and were consistent over the
4-year period 2000 through 2003.




14
   According to SSA POMS SI 02201.020 B.3.b., SSA may attempt to recover an overpayment from a
representative payee when (1) the overpaid funds were not used for the overpaid individual's support and
maintenance, and (2) the overpaid funds were used for the overpaid individual's support and maintenance
and the payee was aware of the facts causing the overpayment.


Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)              8
       Table 3: Representative Payee Earnings Available when Overpayments were
                                      Suspended
                                     Debtor/          Reported      Reported      Reported      Reported
        Over-                     Representative      Earnings      Earnings      Earnings      Earnings
       payment        Date            Payee           Tax Year      Tax Year      Tax Year      Tax Year
       Amount      Suspended       Relationship         2000          2001          2002          2003
 1      $15,110      7/18/02       Child/Mother         $55,556       $62,159        $60,271      $70,978
 2        4,895      6/03/02       Child/Mother             369        51,623         64,033       36,598
 3        3,584      4/23/02       Child/Mother          35,486        46,405         48,468       44,087
 4         8,186      4/30/02       Child/Mother          35,216        40,081        42,120        38,273
 5         5,374      3/18/02       Child/Father          33,067        29,102        30,577       None
 6         4,767      7/02/02       Child/Father          33,067        29,102        30,577       None
 7         7,568     11/19/01       Child/Mother          31,431        27,064        25,696        16,337
 8         5,315      9/09/02       Child/Father          31,248        28,208        22,078        31,511
 9         6,666     5/24/02        Child/Mother          27,649        31,553        33,130        33,970
10         8,036     7/26/02        Child/Mother          24,282        20,601        14,341        15,629
11         4,821     9/17/02        Child/Mother          21,467        22,392        24,605        24,884
12         3,126     12/03/01       Child/Mother          19,243        26,217        27,747        35,380
13        13,712     4/30/02        Child/Mother          19,214        19,232        20,813        16,535
14         4,383     11/14/01       Adult/Mother          18,304        14,809        16,094         6,823
15         5,907     2/07/02        Child/Father          16,382        19,162        21,742        19,642
16         6,554     2/07/02        Child/Father          16,382        19,162        21,742        19,642
17        32,973      2/4/02       Adult/Relative         16,382        12,059        18.236         6,037
18         4,621     9/27/02        Child/Mother          15,848        12,305        10,832        12,458
19         4,782     10/2/01        Child/Mother          14,007        24,538        30,651        21,708
20         4,835     4/16/02        Adult/Mother          13,842        14,907        20,936        27,303
                                                                             15
21         4,300     5/29/02        Child/Mother           9,548      12,844          24,271        14,801
22         6,619     7/30/02        Adult/Mother             738        21,307        21,823        22,147
Legend: Earnings shaded in purple indicate the debtor earnings available at the time the overpayment was
suspended

 We believe SSA’s debt collection efforts could benefit by:

  •     periodically matching representative payee earnings to suspended overpayments—
        this match would enable SSA to identify those representative payees that should be
        considered for renewed collection efforts and

  •     establishing policy and procedures for collecting overpayments from a
        representative payee who is the parent of a minor child/beneficiary.




 15
      Total earnings for TY 2001 were $14,443. Earnings of $1,599 were posted after the suspension date.


 Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)                  9
MORE THOROUGH COLLECTION EFFORTS MAY HAVE LOCATED
DEBTORS

For 14 of the 75 (18.7 percent) suspended overpayments in which SSA recorded the
reason for the decision as unable to locate or out of the country,16 we believe SSA may
have been able to locate the debtor through their or the representative payee’s
employer. In some of the cases, SSA attempted to contact the debtor or the debtor’s
representative payee but was unsuccessful. However, we found no evidence in these
14 suspension decisions that SSA attempted to contact the debtors’ or the
representative payees’ employers. Accordingly, we estimate that, in FY 2002,
540 debtors with unable to locate overpayment suspension decisions totaling about
$3.2 million may have been located by contacting the debtors’ or representative payees’
employer.

SSA policy states that personnel should rely on information from internal sources to
locate a debtor.17 SSA’s Supplemental Security Record (SSR) identifies whether a
beneficiary has a representative payee and, if so, the representative payee’s name and
SSN. Additionally, records within the Agency’s MEF indicate whether a beneficiary or a
representative payee had earnings posted to their records. If so, the MEF also provides
the name and location of the employer who reported these earnings. According to SSA
policy, staff should identify employers as potential sources of information in attempting
to locate a debtor. Specifically, if previous collection efforts were unsuccessful in
locating the debtor, staff is instructed to contact the employer(s).18

At the time of the suspension decisions, SSA earnings records reported that seven of
the debtors had earnings in either TY 2000 or 2001 and that six of these debtors had
earnings from the same employer for TYs 2000 to 2002. Given that most of these
debtors had the same employer for 3 consecutive years, we believe it is reasonable to
expect that SSA staff would have been able to locate the debtor had they contacted the
debtor’s employer. The other seven debtors were children who had a parent as their
representative payee. Although SSA was unable to locate the debtors’ representative
payee, the representative payees had earnings in TYs 2000 and 2001. Of the seven
representative payees, six had earnings from the same employer for TYs 2000 through
2002. We found no evidence that SSA attempted to locate the representative payees
by contacting their employer.

Had SSA been able to locate the debtors or the debtors’ representative payees, it may
have been able to collect some portion of the debt. Our review of SSA’s earnings
records found that all of the debtors and six of the seven representative payees had
continued earnings in TYs 2000 through 2003, which may have been sufficient to allow

16
  For the 14 cases, we found no evidence to support the decision or the evidence indicated the debtor
could not be located. Therefore, in these 14 cases, it appears SSA was unable to locate the debtors.
17
     SSA POMS, GN 02210.213 B.3 and SI 02220.051.
18
     SSA POMS, SI 02220.051.e.


Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)                10
some repayment of the debt. See Table 4 for details on the debtors’ earnings and
Table 5 for details on the representative payees’ earnings.

                       Table 4: Earnings Data for Unlocated Debtors

                                           Reported         Reported        Reported         Reported
                Over-                      Earnings         Earnings        Earnings         Earnings
               payment        Date            TY               TY              TY               TY
               Amount      Suspended         2000             2001            2002             2003
       1        $12,108      3/8/02           $38,137          $53,479         $37,973          $42,310
       2          3,968     4/10/02         None                21,816          25,183           34,904
       3          6,056      4/9/02            17,136           18,071          19,557           21,534
       4          5,578     2/25/02            15,088           14,211          13,971           12,321
       5          8,551     1/10/02            11,050           24,517          35,720           41,225
       6          3,665     4/29/02            10,490           16,906          17,651           16,970
       7           3,136      5/22/02              4,809           21,598        22,894            26,913
     Legend: Earnings shaded in purple indicate the debtor’s earnings were available at the time the
     overpayment was suspended

      Table 5: Earnings Data for Representative Payees of Unlocated Debtors

                                     Debtor/          Reported      Reported     Reported      Reported
      Over-                       Representative      Earnings      Earnings     Earnings      Earnings
     payment           Date           Payee              TY            TY           TY            TY
     Amount        Suspended       Relationship         2000          2001         2002          2003
 1    $12,755         3/6/02       Child/Mother        $33,306        $29,908      $27,186        $6,352
 2      4,276        9/12/02       Child/Mother          19,099        17,108       19,271        20,396
 3      7,986        9/11/02       Child/Mother          15,220        23,608       29,278        25,577
 4      5,433        6/19/02       Child/Mother          13,001        20,713       18,164        12,229
 5      3,734        1/22/02       Child/Mother          11,867        24,075        8,430             0
 6      3,909        4/29/02       Child/Mother          11,180        21,463       21,760        21,386
 7         7,826    4/23/02         Child/Mother           8,680        11,980      13,387          15,990
 Legend: Earnings shaded in purple indicate the debtor’s earnings were available at the time the
 overpayment was suspended

SSA Employee Could Not Be Located

Of specific concern is the $12,108 overpayment suspension identified in Number 1 in
Table 4 above. This debtor was an SSA employee when the overpayment was
suspended. SSA staff recorded the reason for this suspension as unable to locate or
out of the country. SSA collection records indicated the debtor could not be located.
However, SSA earnings records for TY 2000, available to SSA staff at the time of the
suspension, indicated the debtor was employed by SSA. Furthermore, information in
the debtor’s Title XVI case folder and a record of contact in SSA’s DMS indicated the
debtor was an SSA employee. In June 2004 we issued an early alert memorandum to
SSA informing the Agency of the employee’s $12,108 suspended overpayment.
However, as of November 19, 2004, the Agency had not recovered any of the overpaid


Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)               11
benefits from the employee. We encourage SSA to initiate action to collect this
overpayment.

In September 2002, we issued Management Advisory Report: Social Security
Administration Employees with Title XVI Overpayment Write-offs (A-04-99-64005),
which addressed the issue of employees with SSA debts written off by the Agency. In
the report, we recommended that SSA periodically match Title XVI program
overpayments against a list of SSA employees to identify current and former employees
indebted to the Agency. According to an SSA official, the Agency has not yet fully
implemented the recommendation. We encourage SSA to implement the
recommendation so employees indebted to the Agency are identified and begin to make
repayment.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)   12
                                                    Conclusions and
                                                   Recommendations
SSA did not always follow established policies and procedures to ensure Title XVI
overpayment suspension decisions were appropriate. Specifically, SSA staff did not
always document their justification for suspending an overpayment. Additionally, many
of the decisions developed by FO staff lacked evidence of a supervisory review. For
some suspension decisions, we found no evidence that SSA considered the debtors’ or
their representative payees’ earnings, which may have been sufficient to make some
repayment of the debt possible. In other suspension decisions, SSA may have been
able to locate the debtor or the representative payee by contacting their employer.
Finally, we identified instances in which debtors and representative payees continued to
have wages posted to SSA’s MEF after the suspension decisions were made.
Accordingly, we believe SSA’s debt collection efforts could benefit by periodically
matching debtors’ and representative payees’ earnings to suspended overpayments.
This match would enable SSA to identify those debtors and representative payees who
should be considered for renewed collection efforts.

We recommend that SSA:

1. Issue a reminder and, if necessary, further guidance to SSA debt collection staff
   requiring that they fully develop and document overpayment suspension decisions,
   as required by POMS.

2. Instruct Debt Management and FO supervisors to periodically review overpayment
   suspension decisions to ensure staff complies with SSA requirements.

3. Ensure all overpayment suspension decisions exceeding established thresholds are
   reviewed and approved by appropriate SSA management officials, as required by
   POMS.

4. Periodically match debtors’ and representative payees’ earnings to suspended
   overpayments to identify instances in which some repayment of the debt is possible.

5. Consider clarifying and/or issuing further guidance allowing the collection of
   overpayments from a representative payee who is a parent of a minor
   child/beneficiary or mentally disabled adult.

6. Take action to collect the $12,108 overpayment from a current SSA employee.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)   13
AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with all of our recommendations. In its response to our report, SSA stated
actions to strengthen the controls over suspending collection efforts on Title XVI
overpayments have been taken or are planned. Additionally, the Agency responded
that several initiatives to improve the collection of existing overpayments, including
suspended overpayments, were in progress. We believe SSA’s response adequately
addressed our recommendations. SSA also provided technical comments that we
incorporated into the final report, as appropriate. The full text of SSA’s comments is
included in Appendix D.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)   14
                                                                  Other Matter
Suspension Decisions were Miscoded
For 27 of the 175 (15.4 percent) unable or unwilling to pay suspension decisions, the
collection effort documentation supported a decision other than that recorded by SSA.
The documentation for these 27 decisions supported an unable to locate or out of the
country suspension decision. However, SSA miscoded the suspension decisions as
unable or unwilling to pay. We agree that the collection efforts should have been
suspended on these overpayments because SSA was unable to contact the debtors.
We did not report these decisions as unsupported suspension decisions. However, we
believe SSA should properly classify the suspension decisions. A more accurate
classification of suspension decisions would provide SSA management with better
overpayment suspension information that may affect decisions on future collection
efforts.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)   15
                                            Appendices




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)
                                                                           Appendix A

Acronyms
 ARC-MOS        Assistant Regional Commissioner for Management Operations
                and Support
 ARC-PCO        Assistant Regional Commissioner for Processing Center Operations
 DMS            Debt Management System
 FO             Field Office
 FY             Fiscal Year
 MEF            Master Earnings File
 MSSICS         Modernized Supplemental Security Income Claims System
 PIN            Personal Identification Number
 POMS           Program Operations Manual System
 PSC            Program Service Center
 SSA            Social Security Administration
 SSI            Supplemental Security Income
 SSIRD          Supplemental Security Income Record Display
 SSN            Social Security Number
 SSR            Supplemental Security Record
 Treasury       Department of the Treasury
 TY             Tax Year




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)
                                                                           Appendix B

Scope and Methodology
We reviewed 250 randomly selected overpayment suspension decisions from Fiscal
Year (FY) 2002 that were still in suspended status as of October 2, 2003. We sampled
175 suspension decisions over $3,000 in which the Social Security Administration
(SSA) concluded the debtor was unable or unwilling to pay. We also sampled
75 overpayment suspensions over $3,000 in which the debtor was unable to be located
or out of the country. We reviewed each overpayment suspension decision for
appropriateness as defined in the Program Operations Manual System.

We also:

•   reviewed applicable Federal regulations that govern overpayment suspensions
    under Title XVI of the Social Security Act;

•   interviewed field office and program service center Debt Management Section
    personnel regarding procedures used to develop an overpayment suspension
    decision;

•   reviewed prior Office of the Inspector General and Government Accountability Office
    reports that pertain to Supplemental Security Income overpayments;

•   queried and reviewed overpayment suspension information from SSA’s Modernized
    Supplemental Security Income Claims System, Modernized Development
    Worksheet, and Debt Management System;

•   queried and reviewed debtors’ earnings data from SSA’s Master Earnings File; and

•   requested and reviewed Title XVI folders from SSA’s Wilkes-Barre Folder Servicing
    Operations.

We performed our audit work in Atlanta, Georgia; and Baltimore, Maryland, from
September 2003 to November 2004. The electronic data used for this audit was
sufficiently reliable to meet the objectives of our audit. The entities audited were the
Offices of the Deputy Commissioner for Finance, Assessment and Management; the
Deputy Commissioner for Operations; and the Deputy Commissioner for Disability and
Income Security Programs. We conducted our audit in accordance with generally
accepted government auditing standards.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)
                                                                                 Appendix C

Sampling Methodology and Results
Sampling Methodology
In total, we reviewed 250 randomly selected overpayment suspension decisions from Fiscal
Year (FY) 2002 that remained in suspended status as of October 2, 2003. Our review
consisted of two samples—one including 175 randomly selected suspension decisions
greater than $3,000 in which the Social Security Administration (SSA) concluded the debtor
was unable or unwilling to pay and another including 75 randomly selected overpayment
suspensions over $3,000 in which the debtor was unable to be located or out of the country.
We selected both of the samples from data queried from segment seven of the Supplemental
Security Record (SSR). The universe for the unable or unwilling to pay and the unable to
locate or out of the country suspension decisions was 795 and 143, respectively. The SSR is
divided into 20 segments based on the last two digits of the beneficiaries’ Social Security
numbers. SSA has concluded the results determined from any one segment are
representative of the entire 20 segments contained in the SSR.

Our audit tested more than one control attribute for each suspension decision. For example,
we determined whether each decision was (1) adequately documented to evidence the
reasoning/justification for the suspension and (2) approved by the appropriate level of
management. As a result, some suspensions have more than one reportable issue and are
included in one or more of the Sampling Results sections below. However, when estimating
the overall number of suspension decisions with errors, we counted only one error for each
case.

Supplemental Security Record - Segment 7 Data

                                            Number of       Percent of      Dollars of      Percent of
                                           Suspensions     Suspensions     Suspensions     Suspensions
                   Total                    equal to or     equal to or     equal to or     equal to or
Suspension       Number of      Total      greater than    greater than    greater than    greater than
  Decision      Suspensions    Dollars        $3,000          $3,000          $3,000          $3,000
Unable or
unwilling to       4,947      $9,038,032        795            16%          $5,950,573         66%
pay
Unable to
locate/out of       760       $1,513,636        143            19%          $1,075,754         71%
the country




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)        C-1
Population and Sample Selection
                                           Population of
         Suspension Decision               Suspensions      Population    Sample       Sample
                                            Decisions        Dollars       Size        Dollars
 Unable or unwilling to pay                    795          $5,950,573     175         $1,383,735
 Unable to locate/out of the country           143          $1,075,754      75          $598,812


Sampling Results

Overall Results – Suspension Decisions in which At Least One Attribute Did Not
Comply with SSA’s Policies and Procedures

          Total Estimated Suspension Decisions – At Least One Attribute
                Did Not Comply with SSA’s Policies and Procedures
                                  Non-Compliant      Estimate to    Estimate to
       Suspension Decision          Suspension        Universe       Universe
                                     Decisions       (Decisions)     (Dollars)
 Unable or unwilling to pay                                110           10,000       $71,811,520
 Unable to locate/out of the country                        54            2,060       $15,682,340
                               Total                       164           12,060       $87,493,860



             Unable or Unwilling to Pay Overpayment Suspension Decisions
                                                                         Decisions          Dollars
  Total Segment Population                                                     795     $5,950,573
  Sample Size                                                                  175     $1,383,735
  Suspension Decisions in which at Least One Attribute Did
                                                                               110         $834,911
  Not Comply with Policies and Procedures
  Percentage of Sample                                                     62.86%           60.34%
  Estimate to Population                                                       500     $3,590,576
  Estimate to the Universe (20 Segments)                                    10,000 $71,811,520




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)        C-2
      Unable to Locate or Out of the Country Overpayment Suspension Decisions
                                                                       Decisions            Dollars
  Total Segment Population                                                     143     $1,075,754
  Sample Size                                                                     75       $598,812
  Suspension Decisions in which at Least One Attribute Did
                                                                                  54       $436,481
  Not Comply with Policies and Procedures
  Percentage of Sample                                                     72.00%           72.89%
  Estimate to Population                                                       103         $784,117
  Estimate to the Universe (20 Segments)                                     2,060 $15,682,340



SSA Did Not Always Maintain Documentation of Its Development of and Justification
for Suspending Collection Efforts

       Total Estimated Suspension Decisions – SSA’s Collection Efforts Did Not
             Document the Justification for Suspending Collection Efforts
                                    Un-Documented      Estimate to     Estimate to
       Suspension Decision            Suspension        Universe         Universe
                                       Decisions       (Decisions)       (Dollars)
 Unable or unwilling to pay                              105              9,540        $69,716,920
 Unable to locate/out of the country                      24                920          6,043,580
                               Total                     129             10,460        $75,760,500


             Unable or Unwilling to Pay Overpayment Suspension Decisions
                                                                       Decisions            Dollars
  Total Segment Population                                                     795     $5,950,573
  Sample Size                                                                  175     $1,383,735
  Suspension Decisions Not Documented                                          105         $810,654
  Percentage of Sample                                                     60.00%           58.58%
  Estimate to Population                                                       477     $3,485,846
  Estimate to the Universe (20 Segments)                                     9,540 $69,716,920




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)        C-3
      Unable to Locate or Out of the Country Overpayment Suspension Decisions
                                                                       Decisions             Dollars
  Total Segment Population                                                     143     $1,075,754
  Sample Size                                                                   75          $598,812
  Suspension Decisions Not Documented                                           24          $168,233
  Percentage of Sample                                                     32.00%            28.09%
  Estimate to Population                                                        46          $302,179
  Estimate to the Universe (20 Segments)                                       920     $6,043,580

SSA Did Not Always Maintain Documentation of Management Review of Suspension
Decisions as Required

              Total Estimated Suspension Decisions – SSA Management
                              Did Not Document Their Review
                                         Unsupported    Estimate to  Estimate to
       Suspension Decision               Suspension       Universe    Universe
                                          Decisions     (Decisions)   (Dollars)
 Unable or unwilling to pay                         81         7,360  $53,781,280
 Unable to locate/out of the country                48         1,840   13,937,460
                                  Total           129          9,200  $67,718,740


             Unable or Unwilling to Pay Overpayment Suspension Decisions
                                                                        Decisions             Dollars
 Total Segment Population                                                       795        $5,950,573
 Sample Size                                                                    175        $1,383,735
 Suspension Decisions that Lacked Evidence of a
                                                                                 81         $625,312
 Management Review
 Percentage of Sample                                                       46.29%            45.19%
 Estimate to Population                                                         368        $2,689,064
 Estimate to the Universe (20 Segments)                                       7,360 $53,781,280




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)         C-4
       Unable to Locate or Out of the Country Overpayment Suspension Decisions
                                                                        Decisions             Dollars
   Total Segment Population                                                     143        $1,075,754
   Sample Size                                                                   75         $598,812
   Suspension Decisions that Lacked Evidence of a
                                                                                 48         $387,883
   Management Review
   Percentage of Sample                                                     64.00%            64.78%
   Estimate to Population                                                        92         $696,873
   Estimate to the Universe (20 Segments)                                     1,840 $13,937,460

SSA Personnel Suspended Overpayments when Debtors or Representative Payees
had Earnings

             Unable or Unwilling to Pay Overpayment Suspension Decisions
                                                                       Decisions             Dollars
  Total Segment Population                                                     795     $5,950,573
  Sample Size                                                                  175     $1,383,735
  Suspensions when Debtors or Representative Payees had
                                                                                32          $240,303
  Earnings
  Percentage of Sample                                                     18.29%            17.37%
  Estimate to Population                                                       145     $1,033,615
  Estimate to the Universe (20 Segments)                                     2,900 $20,672,300

More Thorough Collection Efforts May Have Located Debtors

      Unable to Locate or Out of the Country Overpayment Suspension Decisions
                                                                       Decisions             Dollars
  Total Segment Population                                                     143     $1,075,754
  Sample Size                                                                   75          $598,812
  Suspensions When Debtor or Representative Payee Could
                                                                                14           $88,980
  Have Been Located Through Their Employer
  Percentage of Sample                                                     18.67%            14.86%
  Estimate to Population                                                        27          $159,857
  Estimate to the Universe (20 Segments)                                       540     $3,197,140




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)         C-5
                                                                                 Appendix D

Agency Comments




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)
                                             SOCIAL SECURITY

MEMORANDUM                                                                         33246-24-1140


Date:      March 9, 2005                                                           Refer To: S1J-3

To:        Patrick P. O’Carroll
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of Inspector General (OIG) Draft Report, “The Social Security Administration’s Controls
           over the Suspension of Title XVI Overpayment Collection Efforts” (A-04-04-24029)--
           INFORMATION

           We appreciate OIG's efforts in conducting this review. Our comments to the recommendations are
           attached.

           Please let us know if we can be of further assistance. Staff questions may be referred to
           Candace Skurnik on extension 54636.

           Attachment:
           SSA Response




           Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “REVIEW OF THE SOCIAL SECURITY ADMINSTRATION’S
CONTROLS OVER SUSPENDING COLLECTION EFFORTS ON TITLE XVI
OVERPAYMENTS” (A-04-04-24029)

Thank you for the opportunity to review and comment on the draft report. It is the
Agency’s responsibility to be diligent in protecting both the rights of our recipients and
our resources. It is imperative that all possible overpayment recovery actions be properly
pursued and developed. In addition, properly documented overpayment actions must
consistently follow Agency guidelines to ensure the integrity of the Supplemental
Security Income (SSI) program.

SSA has made progress in its efforts to enhance debt management procedures. We have
embarked on several initiatives and developed software enhancements directed
specifically at increasing debt collection on existing overpayments. For example, the
Administrative Wage Garnishment (AWG) procedure, which allows SSA to garnish
(without a court order) a portion of the wages of a debtor who is no longer in current
benefit status to recover an overpayment, went into effect December 2004. AWG is
accomplished via an interface with current employment records. Additionally, the recent
amendment of the Cross Program Recovery provision of the Social Security Act expands
the authority to recover any Title XVI overpayment from any benefits payable under
Title II or Title VIII. The first phase of these provisions was implemented in
January 2005.

Recommendation 1

Issue a reminder and, if necessary, further guidance to SSA debt collection staff requiring
that they fully develop and document overpayment suspension decisions, as required by
SSA policy.

Comment

We agree. We will issue a reminder to debt collection staff. We will also, on an ongoing
basis, review the Program Operations Manual System (POMS) instructions to ensure that
any appropriate revisions to the development and recording of documentation of
suspension actions are complete, along with training the collection staff on the correct
procedures.

Recommendation 2

Instruct Debt Management and Field Office supervisors to periodically review
overpayment suspension decisions to ensure staff complies with SSA requirements.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)      D-2
Comment

We agree. In April 2004, we implemented a process that requires all Title XVI
overpayment decisions in excess of $2,000 to have a quality review by a supervisor. The
input to effectuate the decision requires both the (Personal Identification Number) PIN of
the decision maker and the PIN of the supervisor.

Recommendation 3

Ensure all overpayment suspension decisions exceeding established thresholds are
reviewed and approved by appropriate SSA management officials, as required by SSA
policy.

Comment

We agree. In April 2004, we implemented procedures that require management review at
the $2,000 threshold and regional office review at the $20,000 threshold. The input to
effectuate the decision at these two thresholds requires both the PIN of the decision
maker and the PIN of the supervisor or manager. An alert is generated notifying the
initial decision maker of the required review prior to effectuating the decision.

Recommendation 4

Periodically match debtors’ and representative payees’ earnings to suspended
overpayment decisions to identify instances in which some repayment of the debt is
possible.

Comment

We agree. In December 2004, SSA implemented AWG, which allows us to add wage
garnishment to the debt collection tools already in use for all debts established in the
Recovery and Collection of Overpayment Process (RECOOP). Through AWG, we
identify a debtor’s wages in attempting to recover a debt, including debts where SSA
suspended collection action. If a debtor qualifies for AWG, SSA will send information to
the debtor’s employer to collect the debt through wage garnishment. Regarding
representative payees (Rep Payees), we will be able to recover Title XVI debts from Rep
Payees in a future software release under the Non-Entitled Debtors (NeD) project. The
NeD project will support the use of existing collection methods to collect debts from Rep
Payees, including a Rep Payee wage match for the application of AWG, against their
wages. Release 1 of the NeD project is underway and will be designed to recover Title II
debts from Rep Payees for deceased beneficiaries. Implementation dates have not yet
been established for the future NeD release that will support recovery of Title XVI debts
from Rep Payees.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)     D-3
In addition, we are currently conducting a study that focuses our debt collection efforts
on debtors who have evidence of earnings. At the conclusion of the study we will
evaluate the findings to determine if this methodology supports a change in prioritizing
pursuit of specific debtors.

Recommendation 5

Consider clarifying existing guidance and/or issuing further guidance allowing the
collection of overpayments from a representative payee who is a parent of a minor
child/beneficiary.

Comment

We agree. Under the support of the NeD project this issue will be addressed. NeD will
enable the Agency to control various types of debtors who have never been entitled to
Social Security benefits and thus have no master record, which is required for debt
collection in SSA’s current systems environment. The database will house all debts
including representative payees. Debts established in NeD will be subject to all available
debt collection tools. This data base is being implemented in phases beginning in
November 2005.

Recommendation 6

Take action to collect a $12,108 overpayment from a current employee.

Comment

We agree. SSA has taken all appropriate, authorized action to collect the debt. We have
successfully contacted the employee and currently the individual is active in the Treasury
Offset Program, which can collect the debt from tax refunds or other Federal payments
(excluding Federal salary). We will continue to monitor this situation.

Additionally, SSA is currently developing regulations on Federal Salary Offset (FSO).
When these regulations become effective, we will have the authority to use FSO through
Department of the Treasury’s program to collect delinquent program overpayment debts
owed by any Federal employee.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)     D-4
                                                                                  Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly A. Byrd, Director, Southern Audit Division (205) 801-1605

   Frank Nagy, Audit Manager (404) 562-5552

Acknowledgments

In addition to those named above:

   Catherine Burnside, Senior Auditor

   Valerie Ledbetter, Auditor

   Phillip Krieger, Auditor

   Shane Henley, Auditor

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or contact
the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218. Refer to
Common Identification Number A-04-04-24029.




Controls over the Suspension of Title XVI Overpayment Collection Efforts (A-04-04-24029)
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
